Luis Rafael Rivera
LAW OFFICES
CAPITAL CENTER BUILDING
SUITE 401
239 ARTERIAL HOSTOS AVENUE
SAN JUAN, PUERTO RICO 00918

LUIS RAFAEL RIVERA
luiswichyrivera@hotmail.com

TEL. (787) 763-1780
(787) 763-1835
FAX. (787) 763-2145

ALLAN A. RIVERA FERNÁNDEZ
allan.a.riverafernandez@gmail.com

September 9, 2021

No. 20-1519
ISMAEL RIVERA, PETITIONER
v.
GLENNIS GELABERT-DE-PEGUERO and others, RESPONDENTS.
Email: dbickell@supremecourt.gov
Re: Motion to Dismiss
To the Honorable Court and the Clerk of the Court:
The subscriber is the counsel of record of Respondents on the above captioned
case that today is before this Honorable Court. Counsel has conferred via telephone
today with brother counsel for the Petitioner, Angel Valencia and there is an agreement
to dismiss the present petition for Certiorari. Respondents agree with the contents of the
motion to dismiss entered by counsel for the Petitioner and join said motion requesting
the case to be dismissed.
Respectfully,

s/ Allan Amir Rivera-Fernández
Allan Amir Rivera-Fernández, Esq.
Counsel of Record
USDC-PR 301904

